                                                   NATIONAL SCIENCE FOUNDATION                     iiI '
                                                    OFFICE OF INSPECTOR GENERAL                         I
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM                                     1  I


                                                                                                       'I
 Case Number: 1-04-01-0001                                                                     Page 1 of 1


                                                                                                            I




         This investigation was predicated upon receipt of an allegation that an NSF emplo$eel made
         unauthorized disclosures of proprietary information associated with an NSF procurement
         solicitation.' The solicitation involved the consolidation of NSF Information ~echnolog?y    (IT) help
         desk related services which, at the time of the solicitation, were being provided by two separate on-
         site contractors.                                                                          1

         Allegations of unauthorized disclosures was received from NSF personnel as well as officials from
                                                                                                                I
         one of the unsuccessful bidders, which was also one of the incumbent IT help desk cobtractors.3
         Numerous NSF personnel associated with the subject solicitation were interviewed, to include those
         participating on the technical evaluation panel.                                                       '1
         The results of the investigation did not indicate any evidence to support or corroborate the alleged
         unauthorized disclosure of proprietary information.
         Accordingly, this case is closed.                                                                      1
                                                                                                                    1




          ' Redacted
           Redacted
           Redacted



VSF OIG Form 2 (1 1/02)
                                                                                                                        I
